              CLOSEOUT MEMORANDUM FOR CASE M 98100030

        On 28 September 1998, an NSF program director1brought an allegation of misconduct in
science to our attention. Subjects 1 and 2* allegedly published four papers (papers 1,3 2,4 3,5 and
4 9 in different journals that represented the same research results andcontained some identical
text; two of these papers acknowledged NSF support for subject 2 . ' ~ ~

        We observed that all four papers, published over a 9 month period, had similar titles and
abstracts. A review of these papers showed that paper 2, submitted 10 months after paper 1 to
the same journal, represented continuing research results for the same project discussed in paper
 1. Paper 3, submitted to another journal, was a review article that presented no new research; it
summarized the state of the subjects' particular field and posed many unanswered questions to
stimulate further research. Paper 3 referenced papers 1 and 2. Finally, paper 4 was an abstract
that an NSF program director9described as a summary for an international meeting.

         The common text that was observed in these four papers, which involved only a few lines
of text, was not a problem because of the common authorship.

       We concluded that there was no substance to the allegations that the subjects published
the same results in different journals and improperly used some identical text in these four
papers. This inquiry is closed and no further action will be taken.

cc: integrity, IG.




                                         Page 1 of 1                                    M 98-30
